a

'OCKLE
2311 Douglas Street CA L al Briefs E-Mail Address:
Omaha, Nebraska 68102-1214 es Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-138

DONALD J. TRUMP,
PRESIDENT OF THE UNITED STATES, ET AL.,
Petitioners,
v.
SIERRA CLUB, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of September, 2020, send
out from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE LANDMARK LEGAL
FOUNDATION IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
MICHAEL J. O’NEILL RICHARD P. HUTCHISON*
MATTHEW C. FORYS Counsel of Record
LANDMARK LEGAL LANDMARK LEGAL FOUNDATION
FOUNDATION 3100 Broadway
19415 Deerfield Ave. Suite 1210
Suite 312 Kansas City, MO 64111
Leesburg, VA 20176 816-931-5559
703-554-6100 pete.hutch@landmarklegal.org
703-554-6119 (Facsimile)

Attorneys for Amicus Curiae

Subscribed and sworn to before me this 8th day of September, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

erreea| Kevee. 0. Linoo Onda hale

Affiant

 

My Comm. Exp. September 5, 2023

Notary Public 40090
Attorneys for Petitioners

Jeffrey B. Wall

Acting Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

Party name: Donald J. Trump, President of the United States, et al.

Attorneys for Respondents

Joshua A. Klein

California Department of Justice - Office of the Solicitor General
1515 Clay Street

Suite 2000

Oakland, CA 94612-1413

510-879-0756

joshua.klein@doj.ca.gov

Party name: State Respondents

Dror Ladin

ACLU Foundation
125 Broad Street
New York, NY 10004
212-549-2500
dladin@aclu.org

Party name: Sierra Club and So. Borders Community Coalition
